      United States Department of Agriculture




Office of Inspector General
Farm Service Agency
Noninsured Crop Disaster
Assistance Program




                                       03702-0001-31
                                       September 2014
                                                   Farm Service Agency 
                                        Noninsured Crop Disaster Assistance Program 

                                                   Audit Report 03702-0001-31 

What Were OIG’s
Objectives
To assess whether FSA
established adequate
management controls to
ensure NAP is effectively and
properly implemented in
accordance with laws,            OIG reviewed NAP to determine if FSA had 
regulations, policies, and
procedures. This includes
                                 adequate management controls over 
controls to ensure producer      producer and crop eligibility, payment 
and crop eligibility for NAP,    accuracy, and payment and income 
controls to ensure accuracy of
the information used to
                                 limitations. 
calculate producer loss
guarantees and loss payments,    What OIG Found
and controls to cover payment
and income limitations.          The Office of Inspector General (OIG) reviewed the Noninsured Crop
                                 Disaster Assistance Program (NAP) and did not identify any
What OIG Reviewed                reportable issues with regard to the Farm Service Agency’s (FSA)
In crop years 2011 and 2012,     management controls over eligibility of producers and crops, accuracy
FSA provided NAP benefits in     of loss guarantees and payments, and limitations on payments and
excess of $523 million to        income.
38,568 producers, of which we
reviewed a judgmental sample     However, FSA has not significantly updated carrying capacities and
of 87 producers who received     needs to ensure grazing loss percentages are consistently determined.
$5.6 million in NAP benefits.    We found that, although FSA requires State committees to establish
                                 county carrying capacities, many of the State offices relied on
What OIG Recommends              carrying capacities that were established more than 20 years ago, and
We recommended that FSA          adequate documentation was not provided to clearly identify or define
develop guidelines and           what factors were considered when those determinations were made.
examples for State offices to    There was no support that any significant adjustments had been made
use when evaluating and          to those carrying capacity levels, nor did FSA establish a requirement
updating carrying capacities     as to how often these carrying capacities should be reviewed.
for review and approval by
State committees; publish        OIG also found that FSA needs to develop a uniform framework that
minimum factors for States to    independent assessors should consider when making the
consider in determining          determinations for grazing loss levels. The assessors may use many
grazing loss percentages; and    different methods and consider various factors when making a
develop procedures for State     determination for grazing loss, and the lack of uniformity can cause
offices to communicate with      significant variances in the loss levels established for neighboring
bordering States to ensure       counties and States.
consistency.
                                 The agency generally agreed with our six recommendations. We
                                 accept management decision for all recommendations.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250


DATE:          September 29, 2014

AUDIT
NUMBER:        03702-0001-31

TO:            Val Dolcini
               Administrator
               Farm Service Agency

ATTN:          Philip Sharp
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Farm Service Agency Noninsured Crop Disaster Assistance Program


This report presents the results of the subject audit. Your written response to the official draft
report, dated September 24, 2014, is included in its entirety at the end of this report. Your
responses and the Office of Inspector General’s position are incorporated into the relevant
sections of the report. Based on your written responses, we are accepting your management
decision for all audit recommendations in the report, and no further response to this office is
necessary.

In accordance with Departmental Regulation 1720-1, final action needs to be taken within 1 year
of each management decision to prevent being listed in the Department’s annual Agency
Financial Report. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Carrying Capacities and Grazing Loss Levels for NAP .................. 3
Finding 1: FSA Needs to Update Carrying Capacities for NAP ........................ 3
Recommendation 1 .................................................................................................. 5
Recommendation 2 .................................................................................................. 6
Recommendation 3 .................................................................................................. 6
Finding 2: FSA Needs to Ensure that Grazing Loss Levels are Consistent ...... 7
Recommendation 4 ................................................................................................ 10
Recommendation 5 ................................................................................................ 10
Recommendation 6 ................................................................................................ 11
Scope and Methodology ........................................................................................ 12
Abbreviations ........................................................................................................ 14
Exhibit A: Fieldwork Sites ................................................................................... 15
Agency's Response ................................................................................................ 16
Background and Objectives 
Background
The U.S. Department of Agriculture (USDA) offers several permanently authorized programs to
help farmers recover financially from a natural disaster, including the Farm Service Agency’s
(FSA) Noninsured Crop Disaster Assistance Program (NAP).

NAP was first authorized under the Federal Crop Insurance Reform Act of 19941 and is
administered by FSA for the Commodity Credit Corporation, under the permanent authority
of Section 196 of the Federal Agriculture Improvement and Reform Act of 1996, as amended
by the Agricultural Risk Protection Act, 2000. The Food, Conservation, and Energy Act of
2008 (2008 Farm Bill) made a number of NAP changes that were then implemented by FSA.

NAP provides financial assistance to producers of noninsurable crops when low yields, loss of
inventory, or prevented planting occurs due to natural disaster. NAP provides coverage
equivalent to the catastrophic risk protection level of crop insurance, which is 50 percent of the
yield for the crop at 55 percent of the expected market price. To be eligible, crops must be
noninsurable crops and agricultural commodities for which catastrophic risk protection is not
available. Crops covered under NAP must be produced for food, livestock consumption, or
fiber. Some crops that are eligible for coverage include, but are not limited to, apples,
cantaloupe, olives, pistachios, watermelon, grass, and wheat.

Eligible producers must apply for coverage and pay the applicable service fee at the FSA county
office where farm records are maintained. An eligible producer is a landowner, tenant, or
sharecropper who shares in the risk of producing an eligible crop. NAP covers the amount of
loss greater than 50 percent of the expected production, based on the approved yield and
reported acreage. NAP payments are limited to $100,000 per producer per crop year.
FSA provided NAP benefits of approximately $256.5 million and $266.8 million in crop years
2011 and 2012, respectively. Approximately 84 percent of the NAP benefits were paid for
grazing and forage losses.

Carrying capacities are established for grazing and forage losses. Carrying capacity consists of a
stocking rate2 and the number of days grazing that can normally be sustained without detrimental
effects on the land and without the use of supplemental feedstuff.3 Cooperative extension
service manuals and university publications describe the daily forage requirements of a
1000 pound animal to be between 2 to 3 percent of its body weight or 20 to 30 pounds of forage
per day. It is the State committee’s responsibility to establish carrying capacities for each crop,



1
  Public Law 103-354, Federal Crop Insurance Reform and Department of Agriculture Reorganization Act of 1994.
2
  The specific number of acres of forage capable of supporting one animal unit (one animal unit is commonly
recognized as a 1,000 pound cow) for the specified grazing days.
3
  Feedstuff is any product, of natural or artificial origin, that has nutritional value in the ration when properly
prepared.

                                                                         AUDIT REPORT 03702-0001-31               1
before the applicable application closing date, that is intended to be used for forage or grazing
for each county in the State.4

The county committee has the responsibility to establish the grazing loss percentage on grazed
forage acreage, based on the percentage loss of the similar forage acreage on the producer’s farm
that was mechanically harvested as forage.5 However, when there is no similar forage acreage
on the same farm or similar farms in the area for which an approved yield has been calculated to
determine loss under NAP, obtaining two independent assessments of the grazed forage acreage
conditions is the only authorized method for determining a percentage of grazing loss in the area.

To be acceptable, each of the two independent assessments must be completed by forage
specialists having no financial interest in the outcome of the assessment. These assessors should
be from a Federal, State, or local government agency, such as the Natural Resources
Conservation Service (NRCS), Bureau of Land Management, or State land departments, or from
an educational institution, such as a State land grant college. These assessments should include,
at a minimum, the identification of the assessor and affiliated institution, agency, or company;
and a statement or chronological narration of the basis for the assessor’s determinations,
including statements or chronologies addressing spontaneous or progressive changes in grazing
conditions. County committees forward their recommendation for the grazing loss percentage
and the independent assessments to the State committee for concurrence and approval.

Objectives
Our overall objective was to evaluate FSA’s management controls to ensure NAP is effectively
and properly implemented in accordance with laws, regulations, policies, and procedures. This
included FSA’s controls to ensure producer and crop eligibility for NAP, controls to ensure
accuracy of the information used to calculate producer loss guarantees and loss payments, and
controls in place to cover payment and income limitations.

During the course of this audit we did not identify any reportable issues related to FSA controls
over producer and crop eligibility for NAP, controls over the accuracy of the information used to
calculate producer loss guarantees and loss payments, and controls in place to cover payment and
income limitations. However, we found that FSA needs to update carrying capacities and ensure
grazing loss percentages are consistently determined.




4
    1-NAP (Rev. 1) Amendment 28, Paragraph 107.5 B, dated June 26, 2006.
5
    1-NAP (Rev. 1) Amendment 41, Paragraph 195 (I), dated June 12, 2008.

2       AUDIT REPORT 03702-0001-31
Section 1:  Carrying Capacities and Grazing Loss Levels for NAP 
Finding 1: FSA Needs to Update Carrying Capacities for NAP
We found that five of the six State offices did not adequately evaluate or update carrying
capacities. Four of these State offices have not made significant adjustments in decades and
relied on carrying capacities that were established over 20 years ago.6 This occurred because
FSA did not establish controls and guidelines for State offices to ensure that carrying capacities
were established consistently, using the most current data available, and supported with adequate
documentation. As a result, carrying capacities may not reflect current conditions and may
create inequities among producers in various States and counties.

Regulations require State committees to establish county carrying capacities before the
application closing date for crops with an intended use of forage or grazing. State office
personnel prepare and present carrying capacities to the State committee for its review and
approval. Multiple carrying capacities may be determined within a county for specific
vegetation if factors such as soil type, elevation, and topography result in a significant
difference.7

With this limited guidance, FSA State committees established carrying capacities using
different methods and did not always consider factors such as topography, elevation, soil
types, and climate. This resulted in inconsistent carrying capacities between States. For
example, the Arkansas State office updates carrying capacities annually, based on harvested
production data, without considering other factors. The Missouri State office updated carrying
capacities in 2012, based on harvested production data, and made adjustments based on various
factors. Four other State offices were unable to provide documentation on what factors were
considered when the carrying capacities were established more than 20 years ago.

During our review of carrying capacities in Colorado, we noted that carrying capacities have not
been modified since the inception of NAP in 1994. The Colorado State office established only
two state-wide carrying capacities – one for irrigated and another for non-irrigated grasses – with
a 184-day grazing period, even though the topography, soil types, and climate in the State vary.

Colorado is primarily a mountain state, but nearly 40 percent of its area belongs to the eastern
high plains. The local climate is affected by differences in elevation and the orientation of
mountain ranges and valleys, with respect to general air movements. Wide variations in climate
occur within short distances, and precipitation patterns vary widely across the State. Due to the
varying topography and climate, Colorado does not lend itself to one non-irrigated carrying
capacity for the entire State.




6
  Oklahoma carrying capacities were established before 1994 and only minor adjustments have been made since
then. New Mexico carrying capacities were established in 1972, for a livestock forage program, and have not
changed since that time.
7
  7 Code of Federal Regulations 1437.402 (a) (1), dated January 1, 2010.

                                                                      AUDIT REPORT 03702-0001-31              3
One Colorado county executive director agreed, stating that the carrying capacity for
non-irrigated grasses was set too low for the county’s grazing capabilities and 27 to 30 acres to
support one animal unit for the grazing period would be a more realistic carrying capacity for the
county, rather than the approved 15 acres. If the carrying capacity was adjusted to 30 acres, a
producer’s NAP payment could be reduced by 50 percent.8

FSA national office officials were unaware that Colorado had only two approved State-wide
carrying capacities and agreed that this would be insufficient, given the State’s diverse
topography, soil type, and climate.

In New Mexico, current carrying capacities are based on a 1972 grazing map, established for
private grazing lands.9 The information supporting the determinations made in the 1972 grazing
map is no longer available, according to the State office.

In 2002, the New Mexico State office attempted to adjust the grazing periods for the State to
what they believed to be more reflective of the current conditions and capabilities of the land.
The State office did not update carrying capacities when these changes were made to grazing
periods because they believed that the adjustment to grazing periods better reflected the
established carrying capacities. In 2008, the County Operations Review 10 objected to the State
office adjusting grazing periods without adjusting the carrying capacities, since the State
continued to rely on the 1972 grazing map. Based on the County Operations Review findings,
the State office reverted back to the grazing periods and carrying capacities established in the
1972 grazing map.

Similar to New Mexico, both California and Oklahoma relied on carrying capacities established
over 20 years ago. The information supporting the determinations made is no longer available,
according to the State offices. We believe that the carrying capacities need to be re-evaluated
since the information is more than 20 years old.

In contrast, Arkansas based carrying capacities on production data published by the National
Agricultural Statistics Service (NASS), but did not adjust the data to reflect grazing efficiencies
and other factors. Missouri also established carrying capacities based on published NASS data,
but made adjustments for dry weight matter, topography, frost dates, and growth curves. The
two different methods created significant variances in carrying capacites for adjacent counties
that border both States.

For example, the carrying capacities were set at 0.6 of an acre in northern Arkansas counties for
alfalfa, whereas the carrying capacities for the southern Missouri counties were set at 2.0 acres,
even though these bordering counties had similar topography, soil types, and climate. Because
of the difference in carrying capacities, producers in the bordering States received unequal NAP

8
  This calculation is based on a 200 acre farm, 184 day grazing period, 75 percent loss percentage, and a national
grazing price of $1.1053. A producer would receive a NAP payment totaling $373 using a carrying capacity of
15 acres compared to a payment of $186 using a 30 acre carrying capacity.
9
  USDA Economics and Agricultural Business, Agricultural Experiment Station and New Mexico State University.
10
   FSA implemented County Operations Review in the fall of 1986 as a strategic internal control mechanism to meet
Federal Managers’ Financial Integrity Act requirements for county office operations.

4     AUDIT REPORT 03702-0001-31
payments for similar losses. We estimate that a producer in Arkansas would receive a payment
over 100 percent larger than a producer in Missouri for the same loss.11

Even though the guidance provides that the carrying capacities are to be set prior to the
application closing date by the State committee, it does not specify what factors should be
considered and the frequency at which carrying capacities should be re-evaluated to ensure they
reflect current conditions. National officials agreed that there are no best practice guidelines on
what is to be considered when reevaluating carrying capacities, and no requirements concerning
the documentation necessary to support these determinations.

FSA needs to take steps to improve how it establishes and updates these carrying capacities.
Without accurate and consistently updated carrying capacities, producers may receive
inequitable shares of NAP benefits among the various States and counties.

Recommendation 1
Provide further guidance to State offices to use in evaluating and establishing carrying capacities
before review and approval by State committees.

Agency Response
FSA handbook procedures will be written to provide that State offices must, on an annual basis,
for each county or area within a county, gather the most current documentation available for
carrying capacities and grazing periods established for each crop, to determine if, for:

     ·   carrying capacity, whether the stocking rate for the specific crop still reflects the number
         of acres of forage capable of supporting one animal unit for the specified grazing days,

     ·   grazing periods, if the grazing days for the specific crop considering factors as
         topography, altitude, land mix, and etc. are still correct.

FSA handbook procedure will be written to provide that State offices are to complete their
review and provide their findings to State committees no later than 90 days before the earliest
applicable closing date for forage. County committees and State committees will be instructed in
handbook procedure to document annual reviews of carrying capacities and grazing days in
county and State committee minutes. County and State committees will be instructed to carry
forward all documentation from year to year that is used as a basis to document established
carrying capacities and grazing days.

The applicable handbook procedures are expected to be issued by December 30, 2014.



11
  This calculation is based on a 200 acre farm, approved grazing periods for each State, a 75 percent loss
percentage, and a national grazing price of $1.1053. A producer would receive a NAP payment totaling
$7,599 using a carrying capacity of 0.6 acre (approved for Arkansas) compared to a payment of $3,465 with a
2.0 acre (approved for Missouri) carrying capacity.

                                                                        AUDIT REPORT 03702-0001-31            5
OIG Position
We accept management decision for this recommendation.

Recommendation 2
Establish controls to ensure that State offices periodically re-evaluate NAP carrying capacities to
reflect the most current data available on conditions and land capabilities when presented for
review and approval to State committees.

Agency Response
FSA handbook procedure will be written to provide controls to ensure that State offices
periodically re-evaluate NAP carrying capacities reflecting the most current data available on
conditions and land capabilities when presented for review and approval to State committees.

The applicable handbook procedures are expected to be issued by December 30, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 3
Develop and implement procedures to monitor State offices to ensure they have adequate
documentation supporting updated carrying capacities presented to State committees and that
those carrying capacities are periodically re-evaluated in accordance with the established
guidelines.

Agency Response
FSA handbook procedure will be written to provide procedures for monitoring State offices to
ensure adequate documentation supporting updated carrying capacities is provided to State
committees and carrying capacities are periodically re-evaluated within established guidelines.

The applicable handbook procedures are expected to be issued by December 30, 2014.

OIG Position
We accept management decision for this recommendation.




6    AUDIT REPORT 03702-0001-31
Finding 2: FSA Needs to Ensure that Grazing Loss Levels are Consistent
Our review identified inconsistencies in the loss percentages established in neighboring counties
along State borders. This occurred because FSA did not develop criteria for determining grazing
loss percentages to ensure they are established consistently. In addition, neighboring FSA State
offices did not communicate when setting loss percentages in order to identify variances between
bordering counties. As a result, producers may have received inequitable NAP payments in
bordering counties that have similar topography, soil types, and climate conditions, and that
suffered comparable losses. In addition, we estimate that producers received between 96 and
233 percent larger NAP payments in Arkansas as compared to Missouri.

NAP guidelines state that, to be acceptable, independent assessments should include, at a
minimum, the identification of the assessor and affiliated institution, agency, or company; and a
statement or chronological narration of the basis for the assessor’s determinations, including
statements or chronologies addressing spontaneous or progressive changes in grazing
conditions.12 However, these guidelines do not establish an objective framework to document
what should be considered and included in the assessment report when determining the
percentage of grazing loss.

During our review of grazing loss percentages established for counties in multiple States, we
evaluated 72 independent assessment reports from 7 States.13 The independent assessors were
inconsistent in the methodology they used, the data they reviewed, and how they reported the
information used to determine grazing loss percentages. Many of the reports did not include
details that described the analysis used in determining grazing loss percentages, including
analysis from clippings of controlled grazing areas, rainfall data, monitoring of drought
conditions, growing season inspections, and comparisons with the losses of other mechanically
harvested forage.

For example, one assessment report estimated grazing loss percentages for seven different
counties based only on a statement about spring and summer temperatures and below normal
rainfall, without comparison to normal temperatures, normal rainfall levels, or an explanation of
how they affected grazing losses. In contrast, another assessment report estimated the grazing
loss percentage based on a detailed analysis of National Oceanic and Atmospheric
Administration precipitation and average monthly temperature data for the current and prior
years. This assessment also included analyses of the U.S. Drought Monitor, exclusion cage 14
clippings from seven different areas located in the county, and producer feedback.

The various methodologies used by the independent assessors may cause inconsistencies in the
grazing loss percentages established in neighboring counties. One State official contended that
usually when there is a wide range of loss percentages, it is due to one assessor merely driving
by looking at the area, visiting with producers, and ultimately making an educated guess, while
other assessors base loss assessments on the production clipped inside exclusion cages, and

12
   1-NAP (Rev. 1) Amendment 41 Paragraph 195 (J), dated June 12, 2008.
13
   We reviewed independent assessment reports from Arkansas, California, Kansas, Missouri, Nebraska,
New Mexico, and South Dakota.
14
   A device used to restrict grazing on an area to be used for the purpose of measuring annual forage production.

                                                                          AUDIT REPORT 03702-0001-31                7
compare clipped production to totals in a normal year, based on moisture and soil type. A NRCS
grazing lands specialist stated that multiple assessors could evaluate the same area and determine
different loss levels because there is no methodology in place that assessors should follow when
establishing grazing loss percentages.

Due to these inconsistencies, one State office used a more objective approach for determining
losses by providing supplemental guidance to the NAP handbook. This guidance amended
previous policy and required county offices and independent assessors to establish a basis or
method for formulating their assessments and mandated that when establishing loss percentages,
at least one assessment be based on data from controlled grazing area clippings. County offices
were also encouraged to provide independent assessors with precipitation reports compiled by
the State Climatologist, copies of the U.S. Drought Monitor, loss adjusters’ monthly growing
season inspections, NRCS grazing data, and comparisons of losses on mechanically harvested
crops in the same area.15 Another State office issued a NAP notice that provided county offices
with recommendations and guidelines for establishing grazing losses. These guidelines
stipulated that each county shall be assessed independently. A list of recommended supporting
documentation was provided to include rainfall data, dated pictures, information from local
ranchers, data from the NRCS drought management calculator, and precipitation data.16 The
other State offices reviewed did not issue any supplemental guidance.

An analysis was conducted of grazing loss percentages for 16 counties along the State borders of
Arkansas and Missouri that had similar topography, soil types, and climate. Our analysis
identified that there were inconsistencies in the grazing loss percentages established for Arkansas
and Missouri adjacent counties. Northern Arkansas’ loss percentages were set at 90 to 95 while
southern Missouri’s loss percentages were set at 62 to 73 percent. The differences in the grazing
loss percentages for adjacent counties ranged from 22 to 30 percent. Because of these
inconsistencies, Arkansas producers received larger NAP payments than producers in Missouri,
even though they suffered comparable losses. We estimated that Arkansas producers would
receive between 96 and 233 percent larger NAP payments than producers in bordering counties
in Missouri. In addition, an NRCS grazing lands specialist questioned the 95 percent grazing
losses reported in the northern half of Arkansas because that would mean that only 12 days out
of the 215 day grazing period were available for grazing. The graph below illustrates the
differences between these bordering States and the impact on NAP payments when the grazing
loss percentage increases.




15
     Kansas Exhibit 4 (1-NAP (Rev. 1) KS Amendment 19), dated May 23, 2007.
16
     New Mexico Notice NAP 77, dated May 7, 2013.

8        AUDIT REPORT 03702-0001-31
The grazing loss percentages in each bar demonstrate the differences for producers located
geographically across the State line. The calculations for this graph are based on a 1,000-acre
farm, 1.60 acre carrying capacity, 215 day grazing period, national grazing price of $1.1053, and
the approved grazing loss percentage for each county.

We attribute the inconsistencies in grazing loss percentages in the bordering counties of
Arkansas and Missouri to the different methodologies used by each State’s independent
assessors. Missouri consulted with two NRCS forage specialists from the State and established
the loss percentages for each county based on analysis of growth curve data, frost dates, rainfall
data, and drought adjustment factors. Missouri FSA State office officials stated that this
methodology was used in order to ensure that the loss percentages were established consistently
throughout the State. In contrast, Arkansas relied on multiple assessors throughout the State to
determine grazing loss percentages. The assessment reports did not always disclose that these
assessors conducted a detailed analysis of rainfall data, the U.S. Drought Monitor, and growing
season inspections. Arkansas assessors also combined the assessments of multiple counties
together in one report.

FSA officials believed that assessments may vary significantly because independent assessors
are associated with many organizations and the training they receive varies. They also stated that
they have no authority to issue requirements on how independent assessors determine grazing
loss percentages. We believe that, since independent assessors are employed by either Federal,
State, or local government agencies, or by educational institutions and private organizations,
FSA should publish minimum factors or criteria that should be considered by independent
assessors when determining grazing loss percentages to ensure they are established consistently.
We also believe that State offices should communicate with bordering States to ensure that

                                                              AUDIT REPORT 03702-0001-31         9
grazing loss levels are consistent along borders with similar topography, soil types, weather
conditions, and crops.

Recommendation 4
Publish minimum factors or criteria for State independent assessors to consider in determining
grazing loss percentages to ensure they are established consistently.

Agency Response
FSA handbook procedures will be written to provide more alternatives for establishing collective
loss percentages for geographical regions to ensure they are established consistently such as
independent assessments, U. S. Drought Monitor, information obtained from loss adjusters with
sufficient forage knowledge to provide grazing loss assessments, data obtained from approved
areas where clippings are obtained on a regular basis to compare with expected levels of
production in a geographical region, and information from Natural Resources Conservation
Service technical service providers having a specialized knowledge.

The applicable handbook procedures are expected to be issued by December 30, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 5
Develop and implement procedures for State offices to communicate with bordering States to
ensure that grazing loss levels are consistent along borders with similar topography, soil types,
weather conditions, and crops.

Agency Response
FSA handbook will be written to provide procedure for State offices to communicate with
bordering States to ensure grazing loss levels are consistent along borders with similar
topography, soil types, weather conditions, and crops.

The applicable handbook procedures are expected to be issued by December 30, 2014.

OIG Position
We accept management decision for this recommendation.




10     AUDIT REPORT 03702-0001-31
Recommendation 6
Develop and implement a process to monitor State offices to ensure that grazing loss percentages
are documented and that State offices fully support their determinations according to agency
recommended criteria.

Agency Response
FSA handbook will be written to provide a process for monitoring State offices to ensure that
grazing loss percentages are documented and determinations are fully supported according to
agency recommended criteria.

The applicable handbook procedures are expected to be issued by December 30, 2014.

OIG Position
We accept management decision for this recommendation.




                                                           AUDIT REPORT 03702-0001-31           11
Scope and Methodology 
We performed our audit fieldwork from May 2013 through June 2014 at the FSA National
office, 6 FSA State offices, and 12 FSA county offices (see Exhibit A). In addition, we obtained
independent assessment reports from Kansas, Nebraska, and South Dakota for review. Our
review focused on FSA’s management controls to ensure NAP is effectively and properly
implemented in accordance with laws, regulations, policies, and procedures.

Our audit covered NAP loss payments issued for crop years 2011 and 2012. Based on FSA data,
38,568 producers received over $523 million in NAP payments for the two crop years. We
judgmentally selected 12 counties in 6 States that generally experienced a high level of NAP loss
payments for crop years 2011 and 2012.17 Within each county, we non-statistically selected up
to 10 producers with high loss payments on multiple crops. In total, we reviewed 87 producers
who received a total of over $5.6 million in NAP payments within these counties.

To accomplish our objectives, we performed the following audit procedures:

     ·   Reviewed producer NAP files to determine eligibility, accuracy of payments, producer
         compliance with income and payment limitations, and whether controls were
         implemented by FSA.

     ·   Performed analysis of grazing loss percentages established for Missouri and Arkansas
         counties bordering each other.

     ·   Reviewed applicable laws, regulations, handbooks, and agency procedures pertaining to
         the administration of NAP.

     ·   Interviewed officials at FSA’s National office in Washington, D.C., to gain an
         understanding of FSA’s expectations of the State and county offices that administer NAP.

     ·   Interviewed FSA State and county office personnel to ascertain the controls in place to
         ensure producer and crop eligibility, loss payment accuracy, and payment and income
         limitations.

     ·   Interviewed NRCS field office personnel and county extension agents to gain an
         understanding of carrying capacities and grazing periods.

     ·   Assessed the reliability of information systems by comparing data in FSA’s database to
         information on record at the selected county offices for our sampled producers.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

17
  Producers in the sampled counties listed in Exhibit A received about $36.9 million in NAP payments for crop
years 2011 and 2012.

12       AUDIT REPORT 03702-0001-31
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                           AUDIT REPORT 03702-0001-31        13
Abbreviations 
FSA .......................... Farm Service Agency
NAP.......................... Noninsured Crop Disaster Assistance Program
NASS ....................... National Agricultural Statistics Service
NRCS ....................... Natural Resources Conservation Service
OIG .......................... Office of Inspector General
USDA....................... United States Department of Agriculture




14     AUDIT REPORT 03702-0001-31
Exhibit A: Fieldwork Sites 

                     OFFICE                       LOCATION
           FSA National Office            Washington, DC
           Arkansas State Office          Little Rock, AR
                  Boone County Office     Harrison, AR
                  Madison County
                                          Huntsville, AR
                  Office
           California State Office        Davis, CA
                  Glenn County Office     Willows, CA
                  Tehama County Office Red Bluff, CA
           Colorado State Office          Denver, CO
                  Otero County Office     Rocky Ford, CO
                  Pueblo County Office    Pueblo, CO
           Missouri State Office          Columbia, MO
                  Hickory County Office Hermitage, MO
                  Howell County Office    West Plains, MO
           New Mexico State Office        Albuquerque, NM
                  Chaves County Office    Roswell, NM
                  Lea County Office       Lovington, NM
           Oklahoma State Office          Stillwater, OK
                  Cotton County Office    Walters, OK
                  Jackson County Office   Altus, OK




                                                   AUDIT REPORT 03702-0001-31   15
Agency's Response 




                    USDA’S
             FARM SERVICE AGENCY
           RESPONSE TO AUDIT REPORT




16   AUDIT REPORT 03702-0001-31
Farm and               DATE:          September 24, 2014
Foreign
Agricultural
Services               TO:            Gil Harden
Farm                                  Assistant Inspector General for Audit
Service                               Office of Inspector General
Agency

Operations Review
and Analysis Staff     FROM:          Philip Sharp, Director,
1400 Independence
Ave, S.W., Stop 0540                  Operations Review and Analysis Staff
Washington, DC
20250
                       SUBJECT:       Response to Official Draft – Noninsured Crop Disaster Assistance
Voice: 202-690-2532                   Program (NAP), Audit 03702-0001-31
Fax: 202-690-3354



                       This is the Farm Service Agency’s (FSA) response to your August 21, 2014,
                       memorandum requesting comments on the official draft report of the subject
                       audit.

                       RECOMMENDATION 1

                       Provide additional guidance to State offices to use in evaluating and establishing
                       carrying capacities before review and approval by State committees.

                       FSA Response

                       FSA handbook procedures will be written to provide that State offices must, on
                       an annual basis, for each county or area within a county, gather the most current
                       documentation available for carrying capacities and grazing periods established
                       for each crop, to determine if, for:

                       •   carrying capacity, whether the stocking rate for the specific crop still reflects
                           the number of acres of forage capable of supporting one animal unit for the
                           specified grazing days

                       •   grazing periods, if the grazing days for the specific crop considering factors
                           as topography, altitude, land mix, and etc. are still correct.

                       FSA handbook procedure will be written to provide that State offices are to
                       complete their review and provide their findings to State Committees (STC) no
                       later than 90 days before the earliest applicable closing date for forage. County
                       Committees (COC) and STC’s will be instructed in handbook procedure to
                       document annual reviews of carrying capacities and grazing days in COC/STC
                       minutes. COC’s and STC’s will be instructed to carry forward all documentation
                       from year to year that is used as a basis to document established carrying
                       capacities and grazing days.



                                        USDA is an Equal Opportunity Provider and Employer
Gil Harden
Page 2

RECOMENDATION 2

Establish controls to ensure that State offices periodically re-evaluate NAP
carrying capacities to reflect the most current data available on conditions and
land capabilities when presented for review and approval to State committees.

FSA Response

FSA handbook procedure will be written to provide controls to ensure that State
offices periodically re-evaluate NAP carrying capacities reflecting the most
current data available on conditions and land capabilities when presented for
review and approval to State committees.

RECOMENDATION 3

Develop and implement procedures to monitor State offices to ensure they have
adequate documentation supporting updated carrying capacities presented to
STC’s and that those carrying capacities are periodically re-evaluated in
accordance with the established guidelines.

FSA Response

FSA handbook procedure will be written to provide procedures for monitoring
State offices to ensure adequate documentation supporting updated carrying
capacities is provided to State committees and carrying capacities are periodically
re-evaluated within established guidelines.

RECOMENDATION 4

Publish minimum factors or criteria for State independent assessors to consider in
determining grazing loss percentages to ensure they are established consistently.

FSA Response

FSA handbook procedures will be written to provide more alternatives for
establishing collective loss percentages for geographical regions to ensure they
are established consistently such as independent assessments, U. S. Drought
Monitor, information obtained from loss adjustors with sufficient forage
knowledge to provide grazing loss assessments, data obtained from approved
areas where clippings are obtained on a regular basis to compare with expected
levels of production in a geographical region, and information from Natural


                  USDA is an Equal Opportunity Provider and Employer
Gil Harden
Page 3

Resources and Conservation Service technical service providers having a
specialized knowledge.


RECOMENDATION 5

Develop and implement procedures for State offices to communicate with
bordering States to ensure that grazing loss levels are consistent along borders
with similar topography, soil types, weather conditions, and crops.

FSA Response

FSA handbook will be written to provide procedure for State offices to
communicate with bordering States to ensure grazing loss levels are consistent
along borders with similar topography, soil types, weather conditions, and crops.

RECOMMENDATION 6

Develop and implement a process to monitor State offices to ensure that grazing
loss percentages are documented and that State offices fully support their
determinations according to agency recommended criteria.

FSA Response

FSA handbook will be written to provide a process for monitoring State offices to
ensure that grazing loss percentages are documented and determinations are fully
supported according to agency recommended criteria.


The applicable handbook procedures are expected to be issued by December 30, 2014.




                  USDA is an Equal Opportunity Provider and Employer
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
